              Audit Report




Accrued Benefits Payable on Behalf
    of Deceased Beneficiaries




       A-09-14-14034 | August 2014
MEMORANDUM


Date:      August 20, 2014                                                    Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   Accrued Benefits Payable on Behalf of Deceased Beneficiaries (A-09-14-14034)

           The attached final report presents the results of our audit. Our objective was to determine
           whether the Social Security Administration took appropriate actions to pay accrued benefits
           on behalf of deceased beneficiaries.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
Accrued Benefits Payable on Behalf of Deceased Beneficiaries
A-09-14-14034

August 2014                                                                Office of Audit Report Summary

Objective                                  Our Findings

To determine whether the Social            SSA needs to improve its controls to ensure it pays accrued benefits
Security Administration (SSA) took         on behalf of deceased beneficiaries. Based on our random sample,
appropriate actions to pay accrued         we estimate
benefits on behalf of deceased
beneficiaries.                                3,440 deceased beneficiaries had accrued $24.7 million in
                                               benefits that SSA should have paid to a surviving beneficiary in
Background                                     current pay, and
                                              1,183 deceased beneficiaries’ MBRs incorrectly showed they
According to SSA policy, an                    had accrued unpaid benefits.
underpayment is any monthly benefit
amount due a beneficiary that SSA has      This occurred because (1) SSA employees did not take appropriate
not paid. Underpayments include            action to pay accrued benefits to surviving beneficiaries, (2) there
accrued monthly benefits SSA has not       was no systems alert that identified the accrued benefits that may
paid and uncashed checks representing      have been payable, and (3) SSA did not remove temporary
correct payments to deceased               suspensions from the MBR after it paid or resolved the accrued
beneficiaries.                             benefits.
When underpaid beneficiaries are           Our Recommendations
deceased, SSA should pay the
underpayment to a surviving spouse,        We recommend that SSA:
a child, a parent, or the legal
representative of the decedent’s estate.   1. Take appropriate action to pay the accrued benefits to surviving
Before paying an underpayment, SSA            beneficiaries in current pay for the 64 deceased beneficiaries
must attempt to locate and determine          identified by our audit.
the proper recipient.
                                           2. Take appropriate action to correct the MBR for the 22 deceased
We identified 5,375 deceased Title II         beneficiaries who had incorrect accrued benefits identified by
beneficiaries who, according to the           our audit.
Master Beneficiary Record (MBR),           3. Evaluate the results of its corrective actions for the
had accrued unpaid benefits dating as         86 beneficiaries and determine whether it should review the
far back as January 1984 that may have        remaining population of 5,275 beneficiaries.
been payable to surviving beneficiaries
                                           4. Remind employees to pay accrued benefits on behalf of
in current pay status on the deceased
                                              deceased beneficiaries to eligible surviving beneficiaries and
beneficiaries’ record.
                                              to correct the MBR after it pays the accrued benefits or if the
                                              accrued benefits are not payable.
                                           5. Improve controls over the payment of accrued benefits upon a
                                              beneficiary’s death.

                                           SSA agreed with our recommendations.
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
Results of Review ............................................................................................................................2
     Accrued Benefits Not Paid.........................................................................................................3
     Accrued Benefits Not Payable ...................................................................................................5
Conclusions ......................................................................................................................................7
Recommendations ............................................................................................................................7
Agency Comments ...........................................................................................................................7
Appendix A – Scope and Methodology ..................................................................................... A-1
Appendix B – Sampling Methodology and Results ................................................................... B-1
Appendix C – Agency Comments .............................................................................................. C-1
Appendix D – Major Contributors.............................................................................................. D-1




Accrued Benefits Payable on Behalf of Deceased Beneficiaries (A-09-14-14034)
ABBREVIATIONS
MBR                  Master Beneficiary Record

OIG                  Office of the Inspector General

POMS                 Program Operations Manual System

SSA                  Social Security Administration




Accrued Benefits Payable on Behalf of Deceased Beneficiaries (A-09-14-14034)
OBJECTIVE
Our objective was to determine whether the Social Security Administration (SSA) took
appropriate actions to pay accrued benefits on behalf of deceased beneficiaries.

BACKGROUND
According to SSA policy, an underpayment is any monthly benefit due a beneficiary that it has
not paid. For example, accrued, unpaid benefits may occur when SSA suspends benefits pending
its selection of a representative payee, a beneficiary’s whereabouts are unknown, or a benefit
check is returned undeliverable. 1

If the underpaid beneficiary is deceased, SSA must pay underpayments in the following order of
priority: (1) to the surviving spouse who was either living in the same household as the deceased
at the time of death or who, for the month of death, was entitled to a monthly benefit on the same
record as the deceased; (2) to the child who, for the month of death, was entitled to a monthly
benefit on the same record as the deceased; (3) to the parent who, for the month of death, was
entitled to a monthly benefit on the same record as the deceased; (4) to another surviving spouse;
(5) to another child; (6) to another parent; and (7) to the legal representative of the deceased
person’s estate. A surviving divorced spouse does not qualify for an underpayment. 2

Before paying an underpayment, 3 SSA must determine whether there is a living individual in
a higher order of priority. SSA must also determine whether there is more than one living
individual in a category. SSA may directly contact potential surviving beneficiaries or send a
letter to the last address of all known individuals in the highest order of priority. When there is
more than one individual in the highest order of priority, SSA must divide the underpayment
equally among the entitled individuals. 4

We identified 5,375 deceased Title II beneficiaries who, according to the Master Beneficiary
Record (MBR), had accrued unpaid benefits dating as far back as January 1984 that may have
been payable to surviving beneficiaries in current pay status on the deceased beneficiaries’
record. From this population, we selected a random sample of 100 deceased beneficiaries for
review (see Appendix A).




1
    SSA, POMS, GN 02301.001 (June 23, 2006) and GN 01010.300 (November 10, 2011).
2
    SSA, POMS, GN 02301.030 (April 21, 2009).
3
  If the underpayment is $50 or more, SSA employees are required to locate eligible recipients. If the underpayment
is less than $50, SSA employees are not required to locate eligible recipients but should pay the underpayment if
there is sufficient information to identify eligible recipients. SSA, POMS, GN 02301.060 (August 30, 2006).
4
    SSA, POMS, GN 02301.030 (April 21, 2009).



Accrued Benefits Payable on Behalf of Deceased Beneficiaries (A-09-14-14034)                                      1
RESULTS OF REVIEW
SSA needs to improve its controls to ensure it pays accrued benefits on behalf of deceased
beneficiaries. Based on our random sample, we estimate that

   3,440 deceased beneficiaries had accrued $24.7 million in benefits that SSA should have paid
    to a surviving beneficiary in current pay, and

   1,183 deceased beneficiaries’ MBRs incorrectly showed they had accrued unpaid benefits.

This occurred because (1) SSA employees did not take appropriate action to pay accrued benefits
to surviving beneficiaries, (2) there was no systems alert that identified the accrued benefits that
may have been payable, and (3) SSA employees did not remove temporary suspensions from the
MBR after they paid or resolved the accrued benefits.

We are 90-percent confident the number of deceased beneficiaries

   who had accrued benefits that SSA should have paid to a surviving beneficiary in current
    pay ranged from 2,981 to 3,866, and the accrued benefits payable ranged from $13.4 to
    $36 million and

   whose MBRs incorrectly showed they had accrued unpaid benefits ranged from 831 to
    1,603 (see Appendix B).

For the 100 deceased beneficiaries in our sample, we found that (1) 64 had accrued benefits that
SSA should have paid to a surviving beneficiary in current pay, and (2) 22 incorrectly showed
they had accrued unpaid benefits. In addition, 12 beneficiaries had no eligible surviving
beneficiaries in current pay status on the deceased beneficiaries’ record. For the remaining
two beneficiaries, SSA correctly paid or resolved the accrued benefits. The following chart
summarizes the results of our review.




Accrued Benefits Payable on Behalf of Deceased Beneficiaries (A-09-14-14034)                       2
            Figure 1: Accrued Benefits Payable on Behalf of Deceased Beneficiaries



                     Based on Random Sample of 100 Deceased Beneficiaries


       Accrued Benefits                                                                  No Surviving
       Not Paid (64%)                                                                   Beneficiary In
                                                                                       Current Pay (12%)


                                                                                        MBRs Incorrectly
                                                                                        Showed Accrued
                                                                                        Unpaid Benefits
                                                                                            (22%)


                                                                                        Correctly Paid Or
                                                                                         Resolved (2%)




Accrued Benefits Not Paid
According to SSA policy, an underpayment is any monthly benefit due a beneficiary that SSA
has not paid. This includes accrued unpaid benefits when SSA suspends payments pending its
selection of a representative payee, a beneficiary’s whereabouts are unknown, a benefit check is
returned undeliverable, a windfall offset 5 determination is pending, or there is another
miscellaneous reason. When underpaid beneficiaries are deceased, SSA should pay the
underpayment to a surviving spouse, a child, a parent, or the legal representative of the
decedent’s estate. Before paying an underpayment, SSA must attempt to determine and locate
the proper recipient. 6

For 64 of the 100 deceased beneficiaries in our sample, SSA did not pay accrued unpaid benefits
to a surviving beneficiary in current pay. This occurred because SSA employees did not take
appropriate action to pay these benefits to the surviving beneficiaries, and there was no systems
alert that identified the accrued benefits that may have been payable. As depicted in Figure 2,
the underpayments were payable to 39 spouses, 20 children, and 5 parents. Although the




5
  Windfall offset is a provision that prevents an individual from receiving monthly Title II and XVI payments in
excess of the total amount that would have been paid had these benefits been disbursed when they were due rather
than retroactively. SSA, POMS, GN 02610.005 (April 25, 2012).
6
 SSA, POMS, GN 02301.001 (June 23, 2006), GN 01010.300 (November 10, 2011), and GN 02301.060
(August 30, 2006).



Accrued Benefits Payable on Behalf of Deceased Beneficiaries (A-09-14-14034)                                       3
surviving beneficiaries were in current pay status on the deceased beneficiaries’ record, SSA did
not pay $460,137 in benefits to which they were entitled.

                          Figure 2: Surviving Beneficiaries in Current Pay



                     For 64 of the 100 Deceased Beneficiaries in Our Sample


           Surviving                                                                          Surviving
          Spouse (39)                                                                         Child (20)




                                                                                              Surviving
                                                                                              Parent (5)




The reasons SSA suspended benefits to the 64 deceased beneficiaries were as follows:

   18 had a pending a windfall offset determination,
   17 had benefit payments that were returned undeliverable,
   9 had a pending representative payee selection,
   2 had whereabouts that were unknown, and
   18 had been suspended for miscellaneous reasons.

All 64 suspensions were temporary or were no longer applicable because the beneficiaries were
deceased. SSA should have removed the suspensions and paid the accrued benefits to surviving
beneficiaries in current pay. During our review, we found no evidence why the accrued benefits
were not payable to the surviving beneficiaries. For example, SSA should have completed the
18 windfall offset determinations and paid the accrued benefits payable on behalf of the deceased
beneficiaries. 7 In addition, since the beneficiaries were deceased, the miscellaneous suspensions,




7
  When beneficiaries are entitled to both Title II and XVI payments for the same months, SSA must reduce any
retroactive Title II benefits that may be payable by any Title XVI payments that should not have been paid because
of the Title II entitlement. SSA, POMS, GN 02610.005.B.1 (April 25, 2012).



Accrued Benefits Payable on Behalf of Deceased Beneficiaries (A-09-14-14034)                                         4
pending representative payee selections, and SSA’s development to obtain a correct address or
determine the beneficiaries’ whereabouts were no longer applicable.

For example, in July 2012, SSA suspended benefits to a beneficiary because her direct deposit
payment was returned undeliverable. SSA mailed the beneficiary a notice and corrected
her address but did not correct her bank account information. The beneficiary remained in
suspended pay status until her death in April 2013. Although the surviving spouse lived at the
same address as the deceased beneficiary, SSA did not pay her accrued benefits from July 2012
through March 2013, totaling $4,010, to the surviving spouse.

Accrued Benefits Not Payable
SSA temporarily suspends benefits pending the selection of a representative payee, development
of a proper address, pending a windfall offset determination, or another miscellaneous reason.
SSA employees should only use a miscellaneous suspension when no other suspension reason
applies. 8 SSA also has systems alerts to ensure its employees properly resolve temporary
suspensions. Specifically, SSA generates alerts for beneficiaries it has suspended for address,
pending the selection of a representative payee, or pending a windfall offset determination.
However, SSA does not generate alerts for beneficiaries it has suspended for miscellaneous
reasons. SSA employees should resolve these alerts and determine whether they can resume
benefits or a permanent suspension/termination applies. 9 When SSA employees resolve a
suspension and pay the accrued benefits, they should also remove the suspension from the MBR.

For 22 of the 100 deceased beneficiaries in our sample, SSA had previously paid the accrued
benefits to a surviving beneficiary, the accrued benefits were not payable because a permanent
suspension applied, or SSA did not correct a temporary suspension on the MBR. As depicted
in Figure 3, this occurred because SSA employees (1) recorded an incorrect suspension reason
for 12 beneficiaries, (2) did not remove the suspension for 7 beneficiaries who had been paid
the accrued benefits, and (3) had not resolved pending windfall offset determinations for
3 beneficiaries. Had SSA completed these windfall offset determinations, the accrued benefits
would not have been payable. However, unless SSA corrects the MBR, there is a risk the
accrued benefits could be improperly paid.




8
    SSA, POMS, GN 02602.320 (March 14, 2014).
9
    SSA, POMS, GN 00504.150 (February 28, 2011).



Accrued Benefits Payable on Behalf of Deceased Beneficiaries (A-09-14-14034)                     5
                   Figure 3: Beneficiary Suspensions Not Properly Resolved



                    For 22 of the 100 Deceased Beneficiaries in Our Sample


      Incorrect Suspension                                                      Previously Paid But
          Reason (12)                                                            Suspension Not
                                                                                  Removed From
                                                                                     MBR (7)




                                                                                Pending Windfall
                                                                               Offset Determination
                                                                                       (3)




SSA incorrectly recorded miscellaneous suspensions for 12 of the 22 beneficiaries. The actual
suspensions should have been as follows:

   five should have been suspended because they were not lawfully present in the United States,
   three should have been suspended because of their earnings,
   three should have been suspended because they were in prison, and
   one should have been suspended because he waived his benefits.

For example, in August 2006, SSA determined a beneficiary was not eligible for disability
benefits because of his earnings. SSA should have suspended his benefits because of his
earnings but incorrectly recorded the suspension as miscellaneous. As a result, SSA improperly
paid benefits, totaling $5,689, to the beneficiary’s spouse and two children from August 2006
until his death in March 2007. Had SSA resolved the miscellaneous suspension and corrected
the MBR for the deceased beneficiary, SSA would have prevented the improper payments to the
spouse and children.




Accrued Benefits Payable on Behalf of Deceased Beneficiaries (A-09-14-14034)                          6
CONCLUSIONS
SSA needs to improve its controls to ensure it pays accrued benefits on behalf of deceased
beneficiaries. For our review, we identified 5,375 deceased Title II beneficiaries who, according
to the MBR, had accrued unpaid benefits that may have been payable to surviving beneficiaries
in current pay. Of these, we estimate that 3,440 deceased beneficiaries had accrued benefits,
totaling $24.7 million that SSA should have paid to a surviving beneficiary in current pay, and
1,183 deceased beneficiaries’ MBRs incorrectly showed they had accrued unpaid benefits. This
occurred because SSA employees did not take appropriate action to pay accrued benefits to
surviving beneficiaries, and there was no systems alert that identified the accrued benefits that
may have been payable. In addition, SSA employees did not remove temporary suspensions
from the MBR after they paid or resolved the accrued benefits (see Appendix B).

To ensure SSA staff identifies and pays underpayments, we believe SSA needs to improve its
controls over accrued benefits payable at the time of death. For example, SSA could establish an
alert that identifies beneficiaries who have accrued benefits that may be payable to a surviving
beneficiary. SSA could also conduct a periodic clean-up operation to identify accrued unpaid
benefits—using an approach similar to our audit methodology—and take action to resolve the
underpayments.

RECOMMENDATIONS
We recommend that SSA:

1. Take appropriate action to pay the accrued benefits to surviving beneficiaries in current pay
   for the 64 deceased beneficiaries identified by our audit.

2. Take appropriate action to correct the MBR for the 22 deceased beneficiaries who had
   incorrect accrued benefits identified by our audit.

3. Evaluate the results of its corrective actions for the 86 beneficiaries and determine whether it
   should review the remaining population of 5,275 beneficiaries.

4. Remind employees to pay accrued benefits on behalf of deceased beneficiaries to eligible
   surviving beneficiaries and to correct the MBR after it pays the accrued benefits or if the
   accrued benefits are not payable.

5. Improve controls over the payment of accrued benefits upon a beneficiary’s death.

AGENCY COMMENTS
SSA agreed with our recommendations. The Agency’s comments are included in Appendix C.




Accrued Benefits Payable on Behalf of Deceased Beneficiaries (A-09-14-14034)                       7
                                       APPENDICES




Accrued Benefits Payable on Behalf of Deceased Beneficiaries (A-09-14-14034)
Appendix A – SCOPE AND METHODOLOGY
We obtained from the Social Security Administration’s (SSA) Master Beneficiary Record
(MBR) a data extract of Title II beneficiaries who had accrued benefits payable on behalf of
deceased beneficiaries. Using this information, we identified 5,375 deceased Title II
beneficiaries who had accrued unpaid benefits dating as far back as January 1984 that may have
been payable to surviving beneficiaries in current pay status on the deceased beneficiaries’
record as of August 2013.

To accomplish our objective, we

   reviewed the applicable sections of the Social Security Act, U.S. Code, and SSA’s Program
    Operations Manual System;

   interviewed SSA employees from the Offices of Operations and Systems;

   reviewed a random sample of 100 deceased beneficiaries who had accrued unpaid benefits
    that may have been payable to surviving beneficiaries in current pay status on the deceased
    beneficiaries’ record;

   reviewed queries from SSA’s MBR, Payment History Update System, Online Retrieval
    System, Claims Folder Records Management System, and Treasury Check Information
    System; and

   determined the amount of accrued benefits payable to surviving beneficiaries as of
    January 2014.

We determined whether the computer-processed data from the MBR were sufficiently reliable
for our intended purpose. We tested the data to determine their completeness and accuracy.
These tests allowed us to assess the reliability of the data and achieve our audit objective.

We conducted audit work in Richmond, California, and Baltimore, Maryland, between
January and April 2014. The entities audited were the Offices of Operations and Systems
under the Offices of the Deputy Commissioners for Operations and Systems.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective.




Accrued Benefits Payable on Behalf of Deceased Beneficiaries (A-09-14-14034)                    A-1
Appendix B – SAMPLING METHODOLOGY AND RESULTS
From the Social Security Administration’s (SSA) Master Beneficiary Record (MBR), we
obtained a data extract of 5,375 deceased Title II beneficiaries who had accrued unpaid benefits
dating as far back as January 1984 that may have been payable to surviving beneficiaries in
current pay status on the deceased beneficiaries’ record as of August 2013. From this
population, we selected a random sample of 100 beneficiaries for review.

Accrued Benefits Not Paid
For 64 of the 100 deceased beneficiaries in our sample, SSA did not pay accrued unpaid benefits
to a surviving beneficiary in current pay. As a result, the surviving beneficiaries did not receive
$460,137 in benefits to which they were entitled. Projecting our sample results to the population
of 5,375 beneficiaries, we estimate that SSA had not paid $24.7 million in accrued unpaid
benefits to 3,440 surviving beneficiaries.

Accrued Benefits Not Payable
The MBR incorrectly showed 22 of the 100 deceased beneficiaries in our sample had accrued
unpaid benefits. Unless SSA corrects the MBR, there is a risk the accrued benefits could be
improperly paid. Projecting our sample results to the population of 5,375 beneficiaries, we
estimate the MBRs for 1,183 deceased beneficiaries incorrectly showed they had accrued unpaid
benefits.

The following tables provide the details of our sample results and statistical projections.

                                 Table B–1: Population and Sample Size
                     Description                                              Beneficiaries
 Population Size                                                                 5,375
 Sample Size                                                                       100

                                  Table B–2: Accrued Benefits Not Paid
          Description                              Beneficiaries                   Benefits Not Paid
 Sample Results                                          64                             $460,137
 Point Estimate                                       3,440                          $24,732,364
 Projection – Lower Limit                             2,981                          $13,422,326
 Projection – Upper Limit                             3,866                          $36,042,402
Note:   All statistical projections are at the 90-percent confidence level.




Accrued Benefits Payable on Behalf of Deceased Beneficiaries (A-09-14-14034)                           B-1
                               Table B–3: Accrued Benefits Not Payable
                     Description                                              Beneficiaries
 Sample Results                                                                        22
 Point Estimate                                                                    1,183
 Projection – Lower Limit                                                            831
 Projection – Upper Limit                                                          1,603
Note:   All statistical projections are at the 90-percent confidence level.




Accrued Benefits Payable on Behalf of Deceased Beneficiaries (A-09-14-14034)                  B-2
           Appendix C – AGENCY COMMENTS




                                           SOCIAL SECURITY

MEMORANDUM

Date:      July 3, 2014                                                                   Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Katherine Thornton /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Accrued Benefits Payable on Behalf of Deceased
           Beneficiaries” (A-09-14-14034) - INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Gary S. Hatcher at (410) 965-0680.

           Attachment




           Accrued Benefits Payable on Behalf of Deceased Beneficiaries (A-09-14-14034)                       C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“ACCRUED BENEFITS PAYABLE ON BEHALF OF DECEASED BENEFICIARIES”
(A-09-14-14034)


Recommendation 1

Take appropriate action to pay the accrued benefits to surviving beneficiaries in current pay for
the 64 deceased beneficiaries identified by our audit.

Response

We agree. We plan to take the appropriate action to pay the accrued benefits to the surviving
beneficiaries in current pay for the 64 deceased beneficiaries no later than October 31, 2014.

Recommendation 2

Take appropriate action to correct the MBR for the 22 deceased beneficiaries who had incorrect
accrued benefits identified by our audit.

Response

We agree. We plan to take the appropriate action to correct the Master Beneficiary Record for
the 22 deceased beneficiaries who had incorrect accrued benefits no later than
September 30, 2014.

Recommendation 3

Evaluate the results of its corrective actions for the 86 beneficiaries and determine whether it
should review the remaining population of 5,275 beneficiaries.

Response

We agree. We will evaluate the results from recommendations 1 and 2 to determine if we should
review the remaining 5,275 of the population. We plan to make our determination no later than
October 31, 2014.

Recommendation 4

Remind employees to pay accrued benefits on behalf of deceased beneficiaries to eligible
surviving beneficiaries and to correct the MBR after it pays the accrued benefits or if the accrued
benefits are not payable.

Response

We agree. We will publish an Administrative Message no later than September 30, 2014 to
remind employees of the policies to pay accrued benefits on behalf of deceased beneficiaries and
to correct the MBR to show the action taken.

Accrued Benefits Payable on Behalf of Deceased Beneficiaries (A-09-14-14034)                       C-2
Recommendation 5

Improve controls over the payment of accrued benefits upon a beneficiary’s death.

Response

We agree. We will evaluate the results from recommendations 1, 2, and 3 to determine if we
need any additional controls. We expect to complete our evaluation no later than
December 31, 2014.




Accrued Benefits Payable on Behalf of Deceased Beneficiaries (A-09-14-14034)                 C-3
Appendix D – MAJOR CONTRIBUTORS
James J. Klein, Director, San Francisco Audit Division

Jack H. Trudel, Audit Manager

Timothy E. Meinholz, Senior Auditor

Wilfred Wong, Audit Data Specialist

Charles Zaepfel, IT Specialist




Accrued Benefits Payable on Behalf of Deceased Beneficiaries (A-09-14-14034)   D-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
